APPENDIX A
V

Case: 19-40273

Document: 00515496582

Page: 1

Date Filed: 07/20/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-40273

0
A True Copy
Certified order issued Jul 20, 2020

W. CcujCa
Clerk, U.S. Court of Appeals, Fifth Circuit

DANIEL EDWARD MURRAY,

Petitioner-Appellant
v.
LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent-Appellee

Appeal from the United States District Court
for the Eastern District of Texas

ORDER:
Daniel Edward Murray, Texas prisoner # 1468676, moves for a
certificate of appealability (COA) to appeal the district court’s dismissal in part
and denial in part of his 28 U.S.C. § 2254 petition challenging his convictions
for aggravated sexual assault of a child, indecency with a child by contact, and
possession of child pornography. He argues that (1) the district court erred in
dismissing his claims challenging his indecency with a child conviction as time
barred; (2) his guilty plea was unknowing and involuntary because the trial
court improperly pronounced the oral sentence; and (3) his trial counsel was
ineffective because (a) he recommended that Murray enroll in a treatment
program without doing an investigation into the facility and programs; (b) he
revealed Murray’s treatment to prosecutors without Murray’s knowledge or

Q

Case: 19-40273

Document: 00515496582

Page: 2

Date Filed: 07/20/2020

No. 19-40273
permission and without any agreement as to the use of the information; (c) he
did not arrange for Murray to be interviewed and/or treated by a forensic
psychologist in a timely manner; (d) he did not properly prepare for trial as he
failed to litigate the admissibility or exclusion of Murray’s treatment records;
(e) he did not investigate the computer drives on which the pornography was
allegedly found; (f) he did not object to the trial court’s failure to effectuate the
plea agreement; and (g) he did not prepare for trial by investigating potential
witnesses to be used to mitigate punishment despite the witnesses’ availability
and desire to assist the defense.
To obtain a COA, a petitioner must make “a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2); Miller-El v. Cockrell,
537 U.S. 322, 336 (2003). If the district court denies relief on the merits, the
petitioner must establish that reasonable jurists would find the district court’s
assessment of the claims debatable or wrong. Slack v. McDaniel, 529 U.S. 473,
484 (2000). If relief is denied on procedural grounds, a COA should issue if the
petitioner demonstrates, at least, that jurists of reason would find it debatable
whether the application “states a valid claim of the denial of a constitutional
right and that jurists of reason would find it debatable whether the district
court was correct in its procedural ruling.” Id. Murray has not made the
required showing concerning his claims.
For the first time in his COA motion, Murray contends that (1) the
district court erred by dismissing his § 2254 application as time barred because
he is actually innocent; (2) the statute of limitations should be waived because
he is raising constitutional questions of law; (3) the filing of his petition was
substantially delayed because the death of an inmate on Murray’s unit caused
a sudden lockdown and denial of law library access; (4) his constitutional right
to contract and his due process rights under the Fifth and Fourteenth

2

Case: 19-40273

Document: 00515496582

Page: 3

Date Filed: 07/20/2020

No. 19-40273
Amendments were denied when the judgment was reformed and a new
sentence was pronounced; (5) the trial court’s error in sentencing him, which
required reversal and separated the time tables for his convictions, constitutes
an extraordinary circumstance warranting equitable tolling; (6) his trial
counsel violated HIPPA1 by obtaining his medical records from a treatment
facility without a court order and giving the report to the State without
Murray’s permission; and (7) his counsel’s total lack of preparation constituted
a constructive denial of counsel under United States v. Cronic, 466 U.S. 648,
659 (1984). He also raises the following new arguments in support of his claim
that his guilty plea was unknowing and involuntary: (1) under the plea
agreement, he was to receive a single 30-year sentence, indicating that the
lesser charge would be dismissed; however, this did not happen; (2) “[a] viable
assumption would be that the plea agreement calling for a thirty-year sentence
was in fact for two fifteen-year sentences running concurrently”; and that it
was clear from the plea agreement that he would not receive “the maximum of
any sentence.” This court does not have jurisdiction to consider claims raised
for the first time in a COA motion. See Black v. Davis, 902 F.3d 541, 545 (5th
Cir. 2018), cert, denied, 140 S. Ct. 859 (2020).
Accordingly, Murray’s COA motion is DENIED. His motion1 for leave to
proceed in forma pauperis on appeal is also DENIED.

/si James L. Dennis
JAMES L. DENNIS
UNITED STATES CIRCUIT JUDGE

Health Insurance Portability and Accountability Act.
3

Case 4:16-cv-00041-RAS-CAN Document 34 Filed 06/18/19 Page 1 of 2 PagelD #: 2987

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION

DANIEL EDWARD MURRAY, #1468676
VS.
DIRECTOR, TDCJ-CID

§
§
§
§
§

CIVIL ACTION NOS. 4:16cv41,4:16cv42

POSTJUDGMENT ORDER
A review of the docket in this case reveals that Petitioner filed a notice of appeal (Dkt. #29),
but did not file a motion for certificate of appealability. A petitioner must obtain a certificate of
appealability before appealing a district court’s decision, 28 U.S.C. § 2253(c)(1). However, a
certificate of appealability may issue only if the petitioner has made a substantial showing of the
denial of a constitutional right, 28 U.S.C. § 2253(c)(2). The court construes Petitioner’s notice of
appeal as a motion for certificate of appealability.
The Supreme Court of the United States explained what is required for a “substantial showing
•of the denial of a constitutional right” in Slackv. McDaniel, 529 U.S. 473,484 (2000). In cases where
a district court rejects a petitioner’s constitutional claims on the merits, the petitioner “must
demonstrate that reasonable jurists would find the district court’s assessment of the constitutional
claims debatable or wrong.” Id. “When the district court denies a habeas petition on procedural
grounds without reaching the movant’s underlying constitutional claim, a [certificate of appealability]
should issue when the prisoner shows, at least, that jurists of reason would find it debatable whether
the petition states a valid claim of the denial of a constitutional right and that jurists of reason would
find it debatable whether the district court was correct in its procedural ruling.” Id. The Supreme Court

Case 4:16-cv-00041-RAS-CAN Document 34 Filed 06/18/19 Page 2 of 2 PagelD #: 2988

has held that a certificate of appealability is a “jurisdictional prerequisite” and a court of appeals lacks
jurisdiction to rule on the merits until a certificate of appealability has been issued. Miller-El v.
Cockrell, 537 U.S. 322, 336 (2003).
Petitioner’s § 2254 motion was denied because his claims were barred by the statute of
limitations or were without merit. Petitioner has not made a substantial showing of the denial of a
constitutional right and, thus, is not entitled to a certificate of appealability.
Petitioner also filed a motion to proceed in forma pauperis on appeal (Dkt. #32). Because
Petitioner has not shown that he is entitled to a certificate of appealability, he also has not shown that
he is entitled to proceed in forma pauperis on appeal. United States v. Delario, 120 F.3d 580, 582-83
(5th Cir. 1997) (failure to show entitlement to a certificate of appealability warrants denial of a
petitioner’s motion to proceed in forma pauperis on appeal). Furthermore, a review of Petitioner’s
inmate financial statement shows that deposits in the last six months totaled $850.00. Thus, Petitioner
is, for that reason also, not entitled to in forma pauperis status.
It is accordingly ORDERED that the construed motion for certificate of appealability and the
motion to proceed in forma pauperis on appeal (Dkt. #32) are DENIED. All motions by either party
not previously ruled upon are DENIED.
SIGNED this the 18th day of June, 2019.

RICHARD A. SCHELL
UNITED STATES DISTRICT JUDGE

